WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-637

Emma Serna d/b/a Serna & Associates Construction Co., LLC

v.

Margette Webster, David Webster, State of New Mexico, et al.

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
D Please enter my appearance as Counsel of Record for all respondents.
e

D There are multiple respondents, and I do, not represent all respondents. Please enter my
• ,
appearance as Counsel of Rec'ord for the following respondent(s):
State of New Mexico, Carl Butkus, Cindy Molina, Alan Malott, Beatrice Brickhouse, Bobby Jo Walker,
James O'Neal, Joey Moya, Amy Mayer, Madeliene Garcia, Arthur Pepin, Monica Zamora, Cheryl Ortega, and Nan Nash

LI I am a member of the Bar of the Supreme Court of the United States.
D I am not presently a member
will be filed by a

he Bar oft

. Should a response be requested, the response

Signature
Date.

12-03Olga Serafimova
Mr.
❑ Ms.
1=1 Mrs. ❑ Miss
New Mexico Office of the Attorney General

(Type or print) Name
Firm

Address

408 Galisteo Street

City & State
Phone

Santa Fe

505-490-4878

Zip
- Email

NM

oserafimova@nmag.gov

A COPY. OF THIS FORM MUST BE SENT. TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
CC: Emma Serna d/b/a Serna .& Associates.. Construction Co, LLC,

